Lee Mulcahy, PhD, pro se
Subscribed and sworn to before this 15th day of February , 2020.
I am duly authorized under the laws of the State of Colorado to administer oaths.

Notary Public
Respectfully submitted,
KATHERINE V. BENNETT
NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID #20194040681
My Commission Expires October 24, 2023

.

Lee Mulcahy, Pro Se
53 Forge Rd., Aspen CO 81611 970.429.8797
February 15, 2020

CERTIFICATE OF SERVICE
I certify that a true and accurate copy of this extension placed in the United
States mail, postage prepaid, and addressed to the following parties on February 15,
2020: Thomas Fenton Smith, Esq. APCHA counsel P.O. Box 3380 229 Midland Avenue
Basalt, CO 81621

12

